C@OCKLE

Legal Briefs

2311 Douglas Street

Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-930
CIC SERVICES, LLC,

Petitioner,

Vv.
INTERNAL REVENUE SERVICE; DEPARTMENT
OF TREASURY; UNITED STATES OF AMERICA,

Respondents.

AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

1, Andrew Cockle, of lawful age, being duly swom, upon my oath state that I did, on the 19th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF PATRICK J. SMITH AS AMICUS CURIAE IN

SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by Priority Mail.

Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

PATRICK J. SMITH
Counsel of Record

IVINS, PHILLIPS & BARKER,
CHARTERED

1717 K Street, NW

Suite 600

Washington, DC 20006

202-662-3415

psmith@ipbtax.com

Subscribed and sworn to before me this 19th day of February, 2020.
J am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

craw hes C Elle Qudeow- hh, Ch Le

My Commission Expires Nov 24, 2020

Notary Public

 

Affiant 39512
Service list for amicus curiae brief in CIC Services, LLC v. Internal Revenue Service, et al.
No. 19-930

Counsel for Petitioner:

Patrick Strawbridge

Counsel of Record
Consovey McCarthy PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
617-227-0548
patrick@consovoymecarthy.com

Counsel for Respondents:

Noel J. Francisco

Counsel of Record
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOI.gov
